NO: 20-6486

IN THE
SUPREME COURT OF THE UNITED STATES

RAKEEM DAVIS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
REPLY MEMORANDUM FOR PETITIONER

Jacqueline E. Shapiro
40 N.W. 3rd Street, PH 1
Miami, Florida 33128
Tel. 305-403-8207
shapiro.miamilaw@gmail.com
Counsel for Petitioner

IN THE SUPREME COURT OF THE UNITED STATES
No. 20-6486
RAKEEM DAVIS
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
REPLY MEMORANDUM FOR PETITIONER

In his petition for writ of certiorari, Petitioner presents a single question
regarding the application of Rehaif v. United States, 139 S.Ct. 2191 (2019): When
determining whether a defendant’s substantial rights were affected by an indictment
and jury instructions that omitted an essential element of a 18 U.S.C. § 922(g)(l)
offense, i.e., that the defendant knew he previously had been convicted of a crime
punishable by imprisonment for a term exceeding one year, may a reviewing court
consider facts about a defendant’s criminal history that were not admitted at trial,
including facts culled from a presentence report?
Respondent has filed a memorandum in which it asks the Court to hold the
petition in this case pending a decision in Greer v. United States, No. 19-8709. The
Court granted a petition for writ of certiorari in Greer on January 8, 2021.
1

Petitioner urges the Court to grant review in this case and to consolidate this
case with Greer for consideration of the merits. In any event, Petitioner agrees that
review should not be denied in this case before a decision is reached in Greer.
Finally, Petitioner brings to the Court’s attention a recent decision that supports
the position taken in his petition for writ of certiorari: United States v. Nasir, 982 F.3d
144, 160–76 (3d Cir. 2020) (en banc). In Nasir, the en banc Third Circuit Court of
Appeals held that when considering an unpreserved claim that Rehaif error occurred
at trial, an appellate court’s plain error analysis must be “confined to the trial record
and the evidence the government actually presented to the jury.” Id. at 170.
Respectfully submitted,
JACQUELINE E. SHAPIRO, ESQ.
Counsel for Petitioner
Miami, Florida
February 2021

2

